Date
March 27, 2013
To
Chief Financial Officer
Chief Human Capital Officer
From
Inspector General
Subject
Audit Report – GPO Faces Challenges With Current and Former Employee
Indebtedness
Report Number 13-02

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the body of the report. We consider management’s comments responsive to all
of the recommendations. The recommendations are resolved and will remain open
pending our verification of the completion of the agreed upon corrective actions.

If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 512-0039.



MICHAEL A. RAPONI
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
            AUDIT REPORT
               13-02




        GPO Faces Challenges With
Current and Former Employee Indebtedness

            March 27, 2013
Contents

Introduction ................................................................................................................................................. 1

Results in Brief ............................................................................................................................................ 2

Background .................................................................................................................................................. 5

Results and Recommendations ............................................................................................................ 7

Finding 1 – Controls over Standard Operating Procedures should be Enforced to
Minimize Employee Indebtedness ...................................................................................................... 9

Finding 2 – Monitoring Debt Collection should be Enhanced .................................................. 12

Appendix A – Objectives, Scope, and Methodology ...................................................................... 16

Appendix B – Management’s Response ............................................................................................. 19

Appendix C – Details on Debts Sampled ........................................................................................... 22

Appendix D – Separation Clearance and Property Return Checklist .................................... 25

Appendix E – Status of Recommendations ...................................................................................... 26

Appendix F – Report Distribution ....................................................................................................... 27

Major Contributors.................................................................................................................................... 28
                              Office of Inspector General

Report Number 13- 02                                               March 27, 2013

                        GPO Faces Challenges With
                Current and Former Employee Indebtedness

Introduction

Concerned with employee indebtedness, the Acting Public Printer asked the Office
of Inspector General (OIG) to determine whether GPO provided sufficient oversight
of current and former employee indebtedness.

The debts of GPO employees generally result from events such as general time and
attendance errors, Federal Employee Health Benefits premiums paid on behalf of an
employee during periods of Leave Without Pay (LWOP), annual and/or sick leave
taken but not earned, and salary advances taken without repaying GPO. GPO grants
waivers for the health benefits debts of employees that retire on disability. As of
November 30, 2012, there were 152 such accounts receivable/debts from current
and former employees totaling $245,104.95. 1

The Office of Finance and Administration is responsible for the Agency’s daily
financial management function. Its responsibility includes consolidation and
reporting of Accounts Receivable. Accounts Receivable arise from claims to cash or
other assets against another entity and include, but are not limited to, monies due
for the sale of goods and services and monies due for indebtedness. The Office of
Finance and Administration enters into an annual Interagency Agreement with the
United States Department of Agriculture’s National Finance Center (NFC) to be
GPO’s payroll service provider. That agreement includes providing debt
management services such as monitoring and collecting receivables related to
current and former employee indebtedness, providing cash reconciliation
information, and providing debt problem resolution through the use of a call center.

The Office of the Chief Human Capital Officer is responsible for ensuring that
appropriate officials are notified before the effective date of an employee’s
separation, so steps can be taken to minimize security risks and loss of property.
GPO policy requires that all separating employees complete clearance procedures
using GPO Form 2983, “Separation Clearance and Property Return Checklist,” July
2011, (Form 2983) before termination, transfer, or separation from employment
(see Appendix D).

1 As of November 30, 2012, there were an additional 11 outstanding accounts receivable for

$28,519.91 incurred as a result of employee parking violations. We examined those debts as part of a
previous OIG audit Report Number 12-14, “GPO Parking Program: Opportunities Exist to Further
Strengthen Controls,” July 25, 2012, and therefore were not included in our scope.

                                                 1
GPO has the right to withhold the final paycheck of any separating employee who is
indebted to the Agency,

We conducted this audit to answer the following question: “Do opportunities exist
to enhance controls over the prevention, establishment, and collection of debts
owed GPO by current and former employees?”

To accomplish our audit objective, we reviewed policies and procedures in place as
of November 2012. We sampled debts owed by current and former employees as of
July 1, 2012, and reviewed monthly NFC debt reports from July through November
2012, to identify any significant process changes. To test controls over establishing,
tracking, and collecting employee debts, we tested a random sample of 37 employee
debts, which represented 25 percent of the population of debts as of July 1, 2012.

To gain an understanding of GPO’s processes related to employee indebtedness, we
performed a walk-through of applicable processes with GPO staff. We also
interviewed key management officials (from the GPO Offices of Finance and
Administration, Human Capital, and General Counsel) responsible for establishing
and monitoring the employee indebtedness process; and reviewing and approving
employee debts.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence that provides a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Our objective, scope, methodology, and criteria are
detailed in Appendix A.

Results in Brief

The audit disclosed that generally GPO has worked toward developing policies that
meet the objectives of the Debt Collection Improvement Act of 1996 (DCIA).
However, several key areas existed where improvements would enhance controls
over the prevention, establishment, and collection of debts owed GPO by current
and former employees.

Of 37 sampled employee debts totaling $86,971 management could not demonstrate
that it followed proper procedures for 35, or 95 percent, totaling $76,194, which
resulted in the establishment of an employee debt. While several of the employee
debts contained more than one instance, we identified the following key areas:

•   Administrative Oversight. In 12 of 37 (32 percent) instances, employee debt
    resulted from errors such as an employee changing shifts without adjusting the
    shift pay differential, continuing to pay the salary of a former employee and a

                                          2
    summer intern who returned to school, processing a performance award several
    times, using an incorrect health insurance code, using the incorrect retirement
    system to calculate retirement benefits, and general time and attendance errors.

•   Advanced Leave. In 11 of 37 (30 percent) instances, a GPO employee resigned,
    was terminated, or retired before repaying advanced annual and/or sick leave
    taken but not earned.

•   Health Benefits Paid by GPO During LWOP. In 7 of 37 (19 percent) instances,
    GPO paid the employee’s share of Federal Employee Health Benefits premiums
    during periods of LWOP and then the employee retired, resigned, or was
    terminated before repaying the debt.

•   Pay Advances Not Recouped. In 5 of 37 (13 percent) instances, the employee
    received a salary advance but never had it offset from subsequent salary.

Our analysis also revealed that of 152 employee debts, 75 (40 percent) were
delinquent more than 180 days and were either not transferred to the U.S.
Department of Treasury (Treasury) for servicing or serviced by GPO using similar
collection techniques.

Effective front-line supervision is the critical element for preventing employee debts
as supervisors are responsible for reporting employee shift changes and other
personnel actions, reviewing time and attendance, enforcing employee check-out
procedures, and managing pay advances, leave and LWOP. However, as front-line
supervision is subject to human error, sound internal controls should be in place to
prevent or detect those errors in a timely manner. We found that improvement was
needed in regard to those controls, specifically: (1) coordination between the
GPO Offices of Finance and Administration and the Chief Human Capital Officer was
not always present, (2) clearance procedures were not always followed in
determining if employees had outstanding debts when terminated, transferred, or
separated, (3) GPO did not maintain adequate records and reports of debts owed by
employees, (4) collection procedures, including the withholding of an employee’s
final paycheck, were not always followed to ensure prompt and aggressive follow-
up collection action on accounts, and (5) standard operating procedures for
referring delinquent debt more than 180 days to Treasury or conduct debt servicing
with similar collection techniques were not developed.

As a result, the risk for GPO of not collecting $236,761 worth of current and former
employee debts has increased.




                                          3
Recommendations

We recommend that the Chief Human Capital Officer revise the GPO employee
separation procedures by informing employees that the failure to complete and
submit the employee checkout form may result in the withholding of any final
payments due the employee.

We recommend that the Chief Financial Officer (1) establish and implement a
process for periodically monitoring NFC’s collection activities associated with
employee indebtedness that will ensure collection activities are achieving the
intended results, and (2) update all pertinent standard operating procedures and/or
Directives to provide guidance to staff regarding the transfer of employee debt
greater than 180 days to Treasury for debt servicing or develop a process to provide
similar servicing activities by GPO, to maintain adequate supporting records for all
employee debts, and to withhold the final paycheck of all departing employees who
are in debt to the Agency.

Management’s Response

Management concurred with the recommendations. The complete text of
management’s response is in Appendix B.




                                         4
Background

Indebtedness for GPO employees was generally the result of:

   •   Administrative errors
   •   Unearned advanced leave
   •   Health Benefits paid by GPO during LWOP
   •   Pay advances not recouped

Concerns regarding non-tax delinquent debt owed to the Federal Government
prompted Congress to enact DCIA, effective April 26, 1996. DCIA requires that
agencies aggressively pursue collecting debt once it becomes delinquent beyond 30
days. In that regard, the agency may employ collection tools such as demand letters,
negotiated repayment agreements, wage garnishment, and debt sales to collect non-
tax delinquent debt. Also, DCIA requires that agencies reduce losses arising from
debt management activities by requiring aggressive monitoring of accounts, and
sharing of information among Federal agencies.

GPO Employee Debt Management Procedures

Employee debts can be identified by anyone such as an employee’s co-worker,
supervisor or new Federal employer; the Office of Human Capital during employee
separation procedures; or the Office of Finance and Administration through
periodic payroll and leave reconciliations along with the review of employee's
status during the onboarding process and other actions initiated by the Office of
Human Capital for employees.

Once identified, the debt is brought to the attention of the Office of Finance and
Administration for collection. When that occurs, the debt is established by a
representative from the GPO Payroll Office, who enters a command into the NFC
GPO payroll system authorizing NFC to take collection action. Time and attendance
corrections are handled solely by the GPO Payroll Office staff by entering the
correction into GPO's automated time and attendance system. If a correction
creates a bill, it is automatically set up by NFC as a bill. Payroll Office staff may also
enter debts directly into the NFC system to be set up as bills to be collected.

Once the GPO Payroll Office directs that NFC establish the debt, NFC performs
collection actions such as letters or salary offsets. There are also some occasions
when the GPO Payroll Office also sends letters to debtors. If an employee leaves
GPO and works for another Federal agency that NFC services, then NFC continues
with its collection activities. For all other employees separating from GPO, NFC will
take collection action only if GPO directs. For retiring employees, the bill for the
debt should be forwarded to the Office of Personnel Management (OPM) for
collection through annuity deductions if the Office of Finance and Administration
requested that a bill be established.

                                            5
NFC provides GPO with a monthly report of all debts that includes the debtor’s
name, original amount of the debt, age of debt, amount collected, last payment date,
and debt balance.




                                         6
Results and Recommendations

While GPO has established policies and procedures that address employee
indebtedness, GPO could strengthen internal controls for preventing debts from
occurring, establishing debts, and collecting debts timely. Specifically, we tested a
random 25-percent sample of employee debts and found that procedures were not
always followed for 95 percent of the debts sample. As of November 30, 2012, 75 of
152 employee debts (49 percent) were more than 180 days delinquent but were not
transferred to Treasury or serviced by GPO with similar collection techniques.

Program Policies

GPO Directive 610.16, “Procedures for Employees Separating from the GPO,”
December 13, 2007, establishes controls for ensuring that all necessary GPO officials
are notified before the effective date of separation so management can minimize
security risks and loss of property. GPO policy requires that employees complete
clearance procedures using Form 2983 before termination, transfer, or separation
from employment.

GPO Directive 445.19, “Debt Collection Procedures,” May 13, 1991, states: “it is the
policy of GPO to take aggressive action, on a timely basis, with effective follow-up, to
collect all claims of the United States for money or property, arising out of the
activities of GPO.”

With passage of DCIA, Congress provided Federal agencies with new and enhanced
delinquent debt collection tools. Although not subject to the act, GPO adopted
similar standards and operating procedures because it is consistent with GPO’s
mission and strategic goals. DCIA centralized delinquent debt collection at the U.S
Department of Treasury (Treasury)requires that it pursue those delinquent debts
that are not actively being collected through a program referred to as cross-
servicing. DCIA also established a centralized offset process at Treasury, known as
the Treasury Offset Program, or TOP. TOP offsets Government payments due
borrowers, such as income tax refunds and Social Security payments, and redirects
them to Federal creditor agencies to which the borrower owes a delinquent debt.
DCIA requires that related debt collection activities be consolidated within the
Government, to the extent possible, to minimize the Government’s delinquent debt
collection costs. To achieve that, the agencies must refer to Treasury, debts that are
delinquent more than 180 days for action. DCIA does, however, provide exceptions
to the requirement.

Internal Control Requirements

The Government Accountability Office (GAO) Standards for Internal Controls in the
Federal Government, November 1999, requires ongoing monitoring in the course of
normal operation. Internal control is performed continually and ingrained in an

                                           7
Agency’s operations. GAO’s standards include regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in performing
their duties. Those standards require the use of control activities described below:

•   Control activities are the policies, procedures, techniques, and mechanisms that
    enforce management’s directives, such as the process of adhering to
    requirements or budget development and execution. They help ensure that
    actions are taken to address risks. Control activities are an integral part of an
    entity’s planning, implementing, reviewing, and accountability for stewardship
    of Government resources and achieving effective results.

•   Control activities occur at all levels and functions of the entity. They include a
    wide range of diverse activities such as approvals, authorizations, verifications,
    reconciliations, performance reviews, maintenance of security, and the creation
    and maintenance of related records that provide evidence of execution of these
    activities as well as appropriate documentation. Control activities may be
    applied in a computerized information system environment or through manual
    processes.

Office of Management and Budget (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, dated December 21, 2004, requires that managers
develop and maintain effective internal controls. Effective internal controls provide
assurance that significant weaknesses in the design or operation of internal controls
that could adversely affect an agency’s ability to meet its objectives would be
prevented or detected in a timely manner.

OMB Circular No. A-129, Revised, Policies for Federal Credit Programs, dated
November 2000, states that “Federal receivables, whether from credit programs or
other non-tax sources, must be serviced and collected in an efficient and effective
manner to protect the value of the Federal Government's assets.”

As a legislative branch agency GPO is not required to follow OMB Circulars,
including Circulars A-123 and A-129. However, since those Circulars provide a
sound basis for internal controls for any organization, GPO has incorporated the
major requirements of Circulars A-123 and A-129 in its directives.




                                           8
Finding 1. Controls Over Standard Operating Procedures should be
Enforced to Minimize Employee Indebtedness

We performed tests of individual debts to assess actions taken by GPO and to
determine why the debt was incurred. The results of our analysis are reflected in
Table 1. See Appendix C for detailed results.

             Table 1. Type and Frequency of Employee Debt from Sample

                                      Number of Occurrences                            Percent
        Reason for Debt                     (Note 1)                                   (Note 1)
    Administrative Oversight                         12                                   32%
    Advanced Leave                                   12                                   32%
    Health Benefits Paid                              7                                   19%
    During LWOP
    Salary Advance                                    5                                   14%
    Employee Requested                                2                                    5%
    Unexplained by                                    2                                    5%
    Management
Note 1. Some of the debts contained more than one of the above attributes, which is why the totals exceed 37
and 100 percent. Percentages are rounded.


Administrative Oversight

Of the 37 debts in our sample, 12 were the result of administrative oversight.
Examples of oversight include:

•     Shift Change. GPO is a 24-hour production facility with plant workers, support
      staff, and security working three shifts. As of October 2012, GPO had 410
      employees working on night shifts. GPO guidelines require that employees
      working any hours between 6:00 p.m. and 6:00 a.m. (commonly referred to as
      second or third shifts) must receive a pay differential of 10 percent 2. On
      occasion, however, employees switch between shifts, which results in
      adjustments to pay. When that happens, it is the responsibility of the employee’s
      supervisor to initiate a Standard Form-52, “Request for Personnel Action” to
      effect the shift change, and the responsibility of the receiving supervisor to
      accurately record the hours and shift in the employee’s time and attendance
      record. We identified two instances in which employees transferred to day shift
      but continued to receive the 10-percent pay differential for an extended time
      period. This resulted in overpayments of $11,917 and $46,508.



2Specifically, GPO Directive 640.7d, “General Pay Administration” April 8, 2008, states, “Work
performed at night will be paid for at the hourly day rate of basic pay plus 10 percent night
differential…” and “Night work is any regularly scheduled or authorized tour of duty, 3 hours or
more of which fall between 6 p.m. and 6 a.m.”

                                                      9
    Because of the significance of those overpayments, we tested GPO’s process for
    managing shift changes by obtaining a list of night-shift employees from the
    Office of the Chief Human Capital Officer. We then verified with each employee’s
    supervisor whether the employees were actually working alternate shifts.
    Although we did not identify any additional employees incorrectly receiving the
    pay differential, we noted that GPO did not have the correct work shift on record
    for 10 employees.

•   Former Employee Continued to Receive Salary. A former employee separated
    from GPO in 2008 and went to work for another Federal agency but continued to
    receive a salary from GPO, including a within-grade increase and a goal-sharing
    award. The error went undetected for 11 months, or about 23 pay periods until
    it was identified by coincidence. As of November 30, 2012, the former employee
    owed GPO more than $24,000 and did not make any payment in nearly 3 years.

•   Performance Award Processed Multiple Times. In 2011, an employee was
    processed for, and received, the same performance award three times. Each
    time the employee asked about the status of the performance award, another
    person initiated the award process resulting in an overpayment of $4,500. The
    employee has been repaying the debt and as of November 30, 2012, had a
    remaining balance of $888.

•   Former Summer Intern Continued Receiving Salary. In 2003, a student intern left
    GPO to return to school but continued to receive a salary resulting in a debt of
    more than $4,600. The former intern has been repaying the debt but as of
    November 30, 2012, 9 years later, still had a remaining balance of $1,386.

Advanced Leave

At the beginning of each year, GPO advances annual leave and occasionally sick
leave 3 to employees meeting certain standards. An employee using leave in excess
of what is earned and who subsequently leaves the Agency before earning the leave
is indebted for the unearned portion of the leave. According to OPM policy, the
employee is required to refund the amount of advanced leave or an agency may
deduct that amount from any pay due the employee upon separation. Though no
GPO-specific policy exists, GPO follows the OPM policy. Our examination of a sample
of 37 debts disclosed 12 debts (32 percent) that were the result of the employees
leaving GPO before earning and repaying leave the Agency advanced.

Health Benefits Paid During LWOP

GPO follows OPM policies for employees on long-term LWOP status. The Agency
typically pays the employee’s share of health benefits while in that status and the

3GPO Directive 645.13, GPO Leave Regulations, states that a maximum of 30 days of sick leave may be
advanced to an employee only in the event of serious and incapacitating illness, disability, or injury.

                                                  10
employee may choose between paying the Agency directly on a current basis, or
having the premiums accumulate and withheld after returning to duty. If the
employee leaves the Agency before repaying GPO, that employee is indebted to the
Agency. Our examination additionally disclosed that seven debts (19 percent) were
the result of seven employees leaving GPO before reimbursing their share of
benefits cost. GPO Officials stated that employee debts incurred for health benefits
during LWOP are often waived, if requested. We saw no evidence that GPO waived
the seven noted debts.

Salary Advances

Of our sample of 37 debts, 5 were the result of outstanding salary advances. GPO
policy allows employees to receive pay in advance in the cases of “personal
emergencies involving the immediate and urgent necessities of life.” Requests for
pay advances must be approved by the applicant's supervisor using GPO Form 2005,
“Application for Advance of Compensation” (Form 2005). The Office of Finance and
Administration standard operating procedures require that advances must not be
made to employees who have an open bill with the Agency and that employees must
repay for pay advances within two pay periods. Those standard operating
procedures further require that pay advances cannot be made for amounts greater
than hours already worked or for more than the take home pay of the employee.

Our review of GPO salary advance data for the first half of 2012 showed that GPO
was not following its policy for salary advances. Of the 33 salary advances through
July 2012, 8 (24 percent) employees had not paid the advances back and owed the
Agency more than $6,900. In those cases, GPO handled the salary advances outside
of NFC and relied on the receiving employee to repay the advance. Those employees
did not, however, repay the advances on their own. Of the 33 advances, 12 did not
have the required Form 2005 (request, approval and justification form), including 7
of the 8 who still owed GPO. One advance was given to an employee who already
owed GPO $100 from a previous debt.

Although the Office of Finance and Administration had standard operating
procedures covering the salary advance process, the office did not apply adequate
internal controls in the way of sufficient management attention and oversight of the
process, to ensure that staff were following those procedures.

Employees Separating from the GPO

In 2011, OIG identified that management did not obtain and file a completed Form
2983 for 73 percent (143 of 194) of employees separating from GPO during Fiscal
Year 2011. The pattern has continued. For the 23 employees in our sample who
had separated from GPO, GPO could provide only 3 completed Form 2983s.
Furthermore, of the three completed Form 2983s, only one noted the employee
owing a debt. One employee’s Form 2983 specifically noted, “Employee Not
Indebted.” That employee, however, actually owed more than $1,300.

                                         11
 GPO Directive 610.16, “Procedures for Employees Separating from the GPO,”
 December 13, 2007, establishes controls for ensuring that all necessary GPO officials
 are notified prior to the effective date of separations so that the proper steps can be
 taken to minimize security risks and loss of property. GPO policy requires that
 employees complete clearance procedures using the Form 2983 before termination,
 transfer, or separation from employment (see Appendix D).

 One of the steps in the process is to determine if there are any outstanding debts.
 Once departing employees with debts are identified, GPO then has the ability to hold
 an employee’s final paycheck to cover at least part of the debt. However, GPO did
 not follow that procedure for the debts in our sample.

 Finding 2. Monitoring Debt Collection should be Enhanced

 Of the 152 employee debts, 75 (49 percent) were more than 180 days delinquent.
 The table below contains an aging schedule for employee debts as of November 30,
 2012.

   Table 2. Aging of GPO Debts Owed by Current and Former Employees (as of
                             November 30, 2012)

Age             < 30 Days       30-180 Days         6 Months – 1 Year      Over 1 Year

Debts               21                27                     32                72
Amount          $24,239.47        $23,194.08             $47,109.70        $150,561.70
Debts
Delinquent          n/a            22 (81%)              26 (81%)           62 (86%)
(note 1)
  Note 1. By delinquent, we mean debtor was not making regular payments.

 As Table 2 shows, 72 percent of the debts (110 of 152 debts) of current or former
 employees owed were delinquent. Debts were delinquent from a range of 35 days
 to more than 9 years. DCIA authorizes two key tools for collecting referred
 delinquent debt: Government-wide cross-servicing and administrative offset. The
 first collection tool, Government-wide cross-servicing, requires debts more than
 180 days delinquent must be referred to Treasury for centralized collection efforts.
 The provision also permits the voluntary transfer of debts less than 180 days
 delinquent. Treasury is managing this process and uses a variety of collection tools
 and strategies including private collection agencies, demand letters, administrative
 offset and negotiated repayment agreements. Through the TOP Program, Treasury
 has developed a process for matching Federal payments against debts owed to the
 Government. When a match occurs, the payment is offset up to the amount of the
 debt, less a pre-determined fee to cover operational expenses.




                                               12
Employee Debt Records

GPO did not maintain files documenting outstanding debt and as a result, could not
produce a report of current and former employee’s debt. Our sample of 37 debts
(25 percent) required a significant amount of research by GPO staff. After providing
ample time to obtain documentation, GPO was still unable to provide it for 2 of the
37, and the documentation provided was incomplete.

NFC provides a monthly Status of Debtor Accounts report. That report did not,
however, include all GPO debts such as those resulting from salary advances or from
daily parking.

Furthermore, Office of Finance and Administration officials stated that much of the
information in the report supporting the debts originated with the Office of the Chief
Human Capital Officer. For those debts the Office of Finance and Administration
was not familiar with the information and had to review records to determine the
cause of the debt. Office of Finance and Administration personnel also stated that
requests to NFC to make the report more useful to GPO had not been addressed.

GPO and Federal Government internal control standards require that all
transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination.

Over-Reliance on the Data Provided by NFC

GPO enters into an Annual Interagency Agreement with NFC for payroll and
personnel processing. Under that agreement, NFC is required to “monitor and
collect receivables related to current and former employee indebtedness.”
However, the Interagency Agreement does not alleviate GPO’s responsibility to
manage the debts.

Management relied on NFC with little oversight and monitoring. Although NFC
provided the Office of Finance and Administration a monthly report of debts, NFC
did not provide copies of letters it sent to debtors. Because NFC did not copy the
Office of Finance and Administration, the Office of Finance and Administration did
not know whether NFC was actively pursuing debtors identified in the report. For
employees who had already left GPO, management relied solely on NFC to pursue
collection and was not proactive in initiating collection action on those former
employees.

Debts of Former Employees

Collection procedures were not always followed to ensure prompt and aggressive
follow-up collection action on accounts of former GPO employees. GPO’s payroll and
personnel service provider for payments is NFC. Once an employee leaves GPO,
however, NFC no longer takes any collection action unless the employee goes to
                                         13
work for another Federal agency that NFC services. NFC can continue to try and
collect debts from those other employees but only if directed to by GPO, which GPO
has not done. Directive 445.19 allows GPO to pursue debts of former employees by
requesting administrative offset either of the former employee’s current agency or
of the Civil Service or Federal Employee Retirement System.

As of November 30, 2012, 49 percent of the debts owed to GPO were from former
employees.

   Table 3. Debts Owed GPO—Employee Status (as of November 30, 2012)

            Employee Status      Number of Debts          Amount
            Current Employees            78             $113,004.36

            Former Employees             74             $132,100.59

             Total                      152             $245,104.95


Of the 74 former employees indebted to GPO, the average time since the last
payment was more than 18 months. As of November 30, 2012, GPO had not
received any payments in more than 6 months for 47 of those debts, totaling more
than $108,000. In our sample of 37 debts, GPO did not take collection action for 19
debts (51 percent), of which 13 were former employees.

Recommendations

We recommend that the Chief Human Capital Officer:

   1. Revise GPO Directive 610.16, “Procedures for Employees Separating From
      the GPO”, to inform employees that the failure to complete and submit the
      Separation Clearance and Property Return Checklist (GPO Form 2938) may
      result in the withholding of any final payments due the separating employee.

Management’s Response

Concur. Management will draft a revised Directive 610.16 by April 15, 2013 (see
Appendix B).

Evaluation of Management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open pending completion of the
corrective action.



                                         14
We recommend that the Chief Financial Officer:

   2. Periodically monitor of the National Finance Center’s collection activities
      associated with employee indebtedness to ensure that all collection activities
      are achieving the intended results.

Management’s Response

Concur. Management has begun to implement a number of actions. The Office of
Finance and Administration is currently working with the Office of the Chief Human
Capital Officer and NFC to review, research, and collect debts recorded in both GPO’s
and NFC records. The Agency is also revising its Debt Collection Directive.

Evaluation of Management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open pending completion of all of the
corrective actions.

   3. Incorporate the requirements of transferring employee debt greater than
      180 days to Treasury for debt servicing (or develop a process that will
      provide similar serving activities), maintaining sufficient supporting
      documentation for all debts, and withholding the final paycheck of all
      separating employees who are in debt to the Agency, into all pertinent
      standard operating procedures and/or Directives.

Management’s Response

Concur. The Office of Finance and Administration has identified the delinquent debt
and beginning in April, 2013 will work with NFC, the U.S. Office of Personnel
Management, and the U.S. Department of Treasury to activate collection activities.
The Office of Finance and Administration will also consider the use of private
collection agencies. The Office of Finance and Administration is also working on
enhancing its reporting of payables, and updating Standard Operating Procedures
for debts monitoring and collections.

Evaluation of Management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open pending completion of all of the
corrective actions.




                                         15
Appendix A - Objectives, Scope, and Methodology

We performed the audit from July through November 2012 at the GPO Central Office
in Washington, D.C. We conducted the audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence that will provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Objectives

We conducted this audit to answer the following question: “Do opportunities exist
to enhance controls over the prevention, establishment, and collection of debts
owed GPO by current and former employees?”

Scope and Methodology

To meet our objectives we performed the following:

   •   Reviewed Federal and GPO debt collection policies and procedures including
       the Federal Debt Collection Act of 1982; DCIA; GPO Directive 445.19; GPO
       Directive 610.16; and applicable Office of Finance and Administration
       standard operating procedures

   •   Discussed GPO debt management and collection procedures with personnel
       from GPO’s Office of Finance and Administration, the Office of the Chief
       Human Capital Officer, and General Counsel.

   •   To monitor debtor status and identify significant process changes, we
       reviewed monthly reports from July through November 2012,
       “Administrative Billings and Collections, Status of Debtor Accounts,” that NFC
       provided.

   •   Examined a random 25-percent sample of debts existing as of July 1, 2012, to
       determine why the debt was incurred and to assess management controls
       and all collection actions taken by GPO (see Sampling Methodology).

   •   Examined GPO’s pay advance process by requesting data of all pay advances
       issued through July 2012 and testing whether each advance met approval,
       documentation, and repayment requirements.

   •   Tested GPO’s management over shift changes by obtaining a list (for pay
       period 18) of all GPO employees on record of working night shift; confirming


                                         16
       the shift with those employee’s Business Unit Heads; and obtaining the
       earnings and leave statement for those employees in question.

Sampling Methodology

To test individual debts and determine why the debt was incurred and to assess
management controls and all collection actions taken by GPO, we examined a
random sample of those debts using the following steps:

    1. Constructed a report of all debts owed GPO by current and former
       employees as of July 1, 2012, by obtaining the NFC report of Status of Debtor
       Accounts as of July 1, 2012, and added other debts not tracked by NFC from
       GPO’s offices of Cash Management, Parking, the Office of the Chief Human
       Capital Officer, OIG, and General Counsel to add other debts not tracked by
       NFC.

    2. Totaled all debts, which equaled 161 debts totaling $288,061.

    3. Adjusted the 161 debts by removing 15 debts that were incurred as a result
       of employee parking violations. The debts were examined as part of a
       previous OIG audit and, therefore, further examination was not necessary.
       This left an audit population of 146 debts worth $250,303.

We randomly selected a sample of 37 from a total of 146 employee debts. We used
EZ Quant Statistical Analysis Software to support our statistical sampling. EZ Quant
Statistical Analysis Software was developed by the Defense Contract Audit Agency
and is used to generate sample sizes and random numbers and estimates.

Parameters                         Debts                Dollars

Universe Size                      146                  $250,303
Confidence Level                   80 percent
Sample Size                        37                   $ 86,971
Number of Occurrences              35                   $ 76,194

Precision Limits                   Debts                Dollars

Lower Limit: 87.3 percent          124                  $218,514
Point Estimate: 94.6 percent       138                  $236,761
Upper Limit: 99 percent            145                  $247,800

Appendix C details the sample results.

We used the results of our test to support our assessment of controls over the cause,
establishment, recording, documenting, tracking, and collection of the debts.


                                         17
Management Controls Reviewed

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures management implemented to
reasonably ensure that the debt management program met GPO’s objectives.

Validity and Reliability of Data – Policies and procedures management implemented
to reasonably ensure that valid and reliable data are obtained, maintained, and fairly
disclosed in reports (See Computer-generated Data below).

Compliance with Laws and Regulations – Policies and procedures management
implemented to reasonably ensure that resource use is consistent with laws and
regulations.

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are in the report narrative.
Implementing the recommendations in this report should improve those
management control deficiencies.

Computer-generated Data

We relied on computer-generated data during this audit. Specifically, we relied on
the NFC-generated Status of Debtor Accounts report provided to GPO each month.
We assessed the reliability of the data but did not test general system and
application controls as those controls existed within NFC in New Orleans, Louisiana.
In order to test the reliability of the data on the report, we attempted to compare
individual debt amounts in the report with corroborating documentation available
through GPO. As a result of GPO’s lack of supporting documentation, for the most
part we were unable to perform those tests. Therefore, we determined that the data
were unreliable but nevertheless usable to meet our audit objectives and support
our conclusions.




                                         18
Appendix B – Management’s Response




                             19
Appendix B – Management’s Response




                             20
Appendix B – Management’s Response




                             21
          Appendix C –Details on Debts Sampled



Sample                   Date           Last             Reason for Debt/Explanations From GPO
  No.    Balance      Established     Payment                         Management
                                                 Administrative Error. The only explanation provided by
                                                 management was that it was a “T&A correction.” Management could
1        $1,643.83    June 12, 2012   none       provide no other explanation or supporting documentation.
                                                 Administrative Error. Management explained that the Agency
                                                 calculated the employee’s retirement based on the incorrect
                                                 retirement system (Federal Employee Retirement System instead of
                                                 Civil Service Retirement System) resulting in a debt which is yet to
2        $1,048.02    Feb. 8, 2012    none       be resolved. Employee left the Agency in 12/11.
                                                 Leave Not Earned. The debt was incurred as a result of annual and
                                                 sick leave indebtedness when employee left Agency on 9/30/10
3        $2,177.79    Nov. 16, 2011   none       before earning back all leave used.
                                                 Leave Not Earned. Employee was dismissed from GPO on 9/11/06
                                                 and was indebted to the Agency for the leave used but unearned at
4        $773.74      Oct. 16, 2003   10/24/06   that point.
                                                 Leave Not Earned. Employee left the Agency on 12/31/07 and was
                                                 indebted to the Agency for the leave used but unearned at that point.
5        $669.08      March 1, 2008   current    Former employee is making regular payments.
                                                 Health insurance indebtedness as a result of LWOP. Employee
6        $168.94      June 8, 2009    none       left the Agency on 6/1/09.
                                                 Leave Not Earned. Health insurance indebtedness as a result of
7        $85.97       Nov.16, 2010    none       LWOP. Employee retired on 10/8/10.
                                                 Leave Not Earned. Employee was dismissed on 9/30/11 and was
                                                 indebted as a result of annual and sick leave used but unearned at
8        $975.78      Oct. 24, 2011   none       that point.
                                                 Administrative Error. The only explanation provided by
                                                 management was that it was a “T&A correction.” Management could
                                                 provide no other explanation or supporting documentation and
9        $405.36      n/a             none       could not provide date when the debt was incurred.
                                                 Leave Not Earned, Health insurance indebtedness as a result of
                                                 LWOP. Former employee had debts due to Office of Workmen’s
                                                 Compensation Program (OWCP) fraud, Health Insurance
                                                 indebtedness, and leave indebtedness. Employee was dismissed for
                                                 OWCP fraud. According to Associate General Counsel, employee
                                                 currently has an active case against GPO but GPO’s case is difficult to
                                                 defend due to lax documentation. Employee has five other debts to
10       $4,014.36    May 1, 2012     none       GPO.
                                                 Administrative Error. Employee left GPO on 4/11/08, to work for
                                                 the Department of Defense but continued to receive pay from GPO.
                                                 Also received a within-grade increase on his GPO salary and received
                                                 a $480 GPO goal-sharing award while working for Defense. Was
11       $24,251.21   July 1, 2009    6/5/11     discovered by chance over 1 year later.
                                                 Health insurance indebtedness as a result of LWOP. Employee
                                                 left the Agency on 12/1/03 with health insurance indebtedness as a
12       $959.90      Oct. 16, 2003   none       result of LWOP.



                                                    22
          Appendix C –Details on Debts Sampled

Sample                   Date            Last
  No.    Balance      Established      Payment                                      Notes
                                                      Employee’s Choice. Rehired as reemployed annuitant before lump
                                                      sum retirement bonus period expired—but employee agreed to set
                                                      up debt to pay it back as part of his rehire. Employee was making
13       $8,453.78    May 16, 2012     current        regular payments.
                                                      No Explanation. Management could provide no explanation or
14       $121.74      May 24, 2009     none           supporting documentation other than “salary overpayment.”
                                                      Pay Advance Not Recouped. Management could provide no other
15       $374.00      Not available    none           support.
16       $131.17      June 16, 2012    Paid in full   Administrative Error. Debt due to T&A Correction.
                                                      Leave Not Earned. Debt incurred as a result of annual leave
                                                      indebtedness when employee separated. Employee has two other
17       $1,193.52    June 29, 2012    none           outstanding debts.
                                                      Health Insurance Indebtedness as a result of LWOP. Employee
                                                      left the Agency on 5/4/09 and was indebted for health insurance
18       $1,069.66    Jan. 16, 2009    3/24/09        debt as a result of LWOP.
19       $2,706.09    May 24, 2008     none           No Explanation. Management could provide no explanation.
                                                      Pay Advance Not Recouped. Debt incurred as a result of pay
20       $83.87       Oct. 24, 2008    current        advance. Employee was making regular payments.
                                                      Administrative Error. Employee is on long term LWOP, but Agency
                                                      had not issued a corresponding SF 50, “Notification of Personnel
                                                      Action,” and, therefore employee kept getting billed improperly for
21       $85.90       Sept. 16, 2009   n/a            health insurance.
                                                      Leave Not Earned. Employee left agency on 11/29/11 with annual
22       $7,253.73    Jan. 16, 2012    none           and sick leave indebtedness.
                                                      Administrative Error. Employee changed from night shift to day
                                                      shift with no corresponding personnel action. Employee was
23       $11,632.50   Sept. 16, 2009   none           dismissed from GPO on 1/11/10.
                                                      Pay Advance Not Recouped. Debt incurred as a result of pay
24       $105.06      Sept. 8, 2011    current        advance. Employee is making regular payments.
                                                      Employee’s Choice. Employee used up all leave for a medical
                                                      emergency but wanted to restore his sick leave and therefore set up
                                                      a debt for sick leave buy-back on his own. Employee was making
25       $2,323,58    Jan. 24, 2012    current        regular payments.
                                                      Administrative Error. T&A correction. Time incorrectly charged to
                                                      leave but should have been LWOP. Employee left Agency on
26       $59.64       June 16, 2010    none           4/13/12.
                                                      Pay Advance Not Recouped, Health Insurance indebtedness due
                                                      to LWOP. Debt resulted from pay advance and paid leave for LWOP.
                                                      Employee left on 10/30/09. Agency officials think employee may
27       $863.03      Sept. 24, 2011   none           have left on disability but had no records.
                                                      Leave Not Earned. Employee had OWCP case and sick leave
                                                      indebtedness. Employee separated from the agency on 4/30/11.
28       $1,166.79    May 24, 2011     current        Making regular payments.
                                                      Administrative Error. Employee overpaid as a result of duplication
                                                      of travel payment. Employee re-paid in full. Date of claim not
29       $280.70      Not available    Paid in full   available.



                                                        23
               Appendix C –Details on Debts Sampled

Sample                         Date               Last
  No.          Balance      Established         Payment                                            Notes
                                                                Administrative Error. Incorrect health insurance. Employee left on
                                                                8/22/12 after audit started while he still owed $1,300. Separation
                                                                checkout form stated, “employee not indebted” and signed by Office of
30         $1,300.00       Dec. 16, 2010        current         Finance Administration employee.
                                                                Leave Not Earned. Employee left the Agency on 4/30/11 with
31         $1,417.08       June 8, 2011         none            annual leave indebtedness.
                                                                Pay Advance Not Recouped. Debt due to pay advance not recouped.
32         $241.60         Not Available        none            No dates provided.
                                                                Leave Not Earned. Employee had leave indebtedness and OWCP
33         $113.15         June 8, 2009         2/22/10         issues.
                                                                Administrative Error. Debt incurred as a result of incorrect health
34         $6,660.44       May 8, 2010          6/1/10          insurance code. Employee left the Agency on 4/28/10.
                                                                Leave Not Earned. Employee left the Agency on 6/30/12 with
34         $251.61         Feb. 8, 2012         current         annual and sick leave indebtedness.
                                                                Administrative Error. Was a student intern. Left to go back to
36         $1810.65        Oct. 1, 2003         current         school but continued to get paid. Making regular payments.
                                                                Administrative Error. Debt incurred as a result of overpayment on
37         $98.28          June 29, 2012        current         hazard pay.




                            Reason for Debt                              Number of Occurrences (1)                 Percent (1)
         Administrative error                                                             12                             32
         Advanced leave not earned                                                        12                             32
         Health benefits paid by GPO during extended LWOP                                  7                             19
         Salary advance not repaid                                                         5                             14
         Employee’s choice                                                                 2                              5
         No explanation                                                                    2                              5
         (1)    Some of the debts contained more than one of the above attributes, which is why the totals exceed 37 and 100
                percent. Percentages are rounded.




                                                                    24
Appendix D – Separation Clearance and Property Return Checklist




                              25
Appendix E - Status of Recommendations


 Recommendation           Resolved   Unresolved      Open/ECD*         Closed
       1                     x                       May 30, 2013
       2                     x                    September 30, 2013
       3                     x                    September 30, 2013
*Estimated Completion Date.




                                        26
Appendix F – Final Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       27
Major Contributors to the Report

Karl Allen, Lead Auditor




                               28
